Memorandum from the Office of the Inspector General



February 12, 2010

Leslie P. Bays, JSF 1A-RGT
Kimberly S. Greene, WT 7B-K

FINAL REPORT – AUDIT 2009-12326 – REVIEW OF TVA'S PENSION RISK



Attached is our final report on our review of TVA's pension risk. This report is for information
purposes only; therefore, no response is necessary.

Recipients of this report are responsible for safeguarding it to prevent publication or other
improper disclosure. As requested, we will redact the Appendices from public disclosure due
to their proprietary nature; however, please advise us of any other sensitive information in this
report that you recommend be withheld.

If you have any questions or wish to discuss the report, please contact Rick L. Taylor, Project
Manager, at (865) 633-7370; Lisa H. Hammer, Director, Financial and Operational Audits, at
(865) 633-7342; or me at (865) 633-7450. We appreciate the courtesy and cooperation
received from you during this review.



Robert E. Martin
Assistant Inspector General
 (Audits and Inspections)
ET 3C-K

RLT:JP
Attachment
cc (Attachment):
      Peyton T. Hairston, Jr., WT 7B-K
      Janet C. Herrin, WT 10D-K
      John M. Hoskins, WT 4C-K
      Tom D. Kilgore, WT 7B-K
      Richard W. Moore, ET 4C-K
      Leonard J. Muzyn, Jr., MR 2D-C
      Emily J. Reynolds, OCP 1L-NST
      Phillip L. Reynolds, LP 3A-C
      Joyce L. Shaffer, WT 9B-K
      John M. Thomas III, MR 3S 120
      Anthony L. Troyani, Jr., CUF 1A-CCT
      Tammy W. Wilson, WT 8A-K
      OIG File No. 2009-12326
        
 


                                 Audit Report
 
Office
      of the Inspector General                              

                                 To the Chairman, TVA
                                 Retirement System          
                                 Board of Directors and
                                                            
                                 the Group President,
                                 Strategy & External
 
                                 Relations 

 

 

 

 
REVIEW OF TVA’S
 

PENSION RISK


 




 

 
 
 

Audit Team                                 Audit 2009-12326 
Rick L. Taylor                             February 12, 2010
David S. Shields
Office of the Inspector General                                                                       Audit Report




TABLE OF CONTENTS
EXECUTIVE SUMMARY ................................................................................ i

BACKGROUND................................................................................................ 1

OBJECTIVES, SCOPE, AND METHODOLOGY ..................................... 3

FINDINGS ......................................................................................................... 4

   REVIEW OF TVARS' INTERNAL CONTROLS ................................................ 4

   REVIEW OF TVARS' EXTERNAL AUDIT ........................................................ 5

   REVIEW OF TVARS' ACTUARY IN DETERMINING PENSION LIABILITY ..... 5

   TVA'S FUNDING AND BENEFITS DECISIONS AND MARKET
   CONDITIONS IMPACTED TVARS' FUNDING STATUS.................................. 6
     Funding Status and History ............................................................................ 6
     Funding and Benefits Decisions .................................................................... 10
     The Market Crash ........................................................................................ 11

   CONCERNS EXPRESSED BY TVARS MEMBERS ...................................... 11


APPENDICES

A. {REDACTED}

B. {REDACTED}

C. LETTER DATED JANUARY 20, 2010, FROM LESLIE P. BAYS TO LISA
   HAMMER

D. MEMORANDUM DATED JANUARY 29, 2010, FROM KIMBERLY S.
   GREENE TO LISA HAMMER




Audit 2009-12326
Office of the Inspector General                                           Audit Report


EXECUTIVE SUMMARY
As part of our annual audit plan, our office reviewed the risks associated with the
Tennessee Valley Authority's (TVA) pension plan and how those risks are
mitigated. Our audit covered areas, such as (1) controls designed to mitigate
pension risk, (2) the TVA Retirement System's (TVARS) financial statement audit
performed by their external auditor as it relates to the existence and valuation of
assets, (3) the work of TVARS' actuary in determining TVA's pension liability,
(4) funding and benefits decisions and other factors impacting the financial status
of TVARS, and (5) concerns raised during the audit by TVARS members.
Our review determined TVARS' (1) controls were suitably designed and
operating with sufficient effectiveness to provide reasonable assurance that the
control objectives specified were achieved, (2) external auditor performed the
work according to their audit program, and we found nothing to question their
work or conclusions, and (3) method used to calculate the pension liability and
funding contribution was acceptable.
We also determined that a combination of factors resulted in TVARS
experiencing a significant shortfall between assets and projected obligations and
being funded at a lower level relative to obligations than most other comparison
utilities. Four factors contributed to this shortfall. Specifically, (1) not making
contributions to TVARS in six years, (2) adding significant benefits to the plan
when the funding status was better, (3) making TVARS rules that had the effect
of enticing employees to retire, and (4) the market crash of 2008 and early 2009
resulted in the funding shortfall. These events constituted a near "perfect storm"
that created a financially unhealthy system with a funding shortfall of
approximately $3 billion and annual retirement benefit payments of about
$575 million as of December 31, 2008.
During our review, TVA and TVARS were in negotiations regarding the fiscal
year 2010 contribution to TVARS and potential benefit reductions. Our office
was contacted by several TVARS members expressing concerns on the impact
the reductions might have. Most of these concerns were related to perception
issues, such as (1) the fairness of proposing cuts to TVARS' benefits without cuts
to the SERP (Supplemental Executive Retirement Plan) or the FERS (Federal
Employees Retirement System), (2) past benefit decisions encouraging
employees to retire early, which increased the benefit payments by TVARS, and
then hiring some of those retirees back under contract, and (3) lack of
independent legal counsel to assist in determining whether certain benefits are
vested.
We provided TVA management and the TVARS Board an opportunity to
comment on a draft of this report. They generally agreed with our findings and
offered additional clarifying and contextual comments. We made minor clarifying
changes to our draft report. Their complete responses are attached as
appendices to this report. We also received written comments from one
individual TVARS Board member and chose to publish the two sets of official
comments from TVA management and the TVARS Board.
Audit 2009-12326                                                               Page i
Office of the Inspector General                                                                     Audit Report


BACKGROUND
Established in 1939, the Tennessee Valley Authority Retirement System
(TVARS) is a defined benefit plan (Plan) covering most full-time and part-time
annual employees. TVARS is a separate legal entity from TVA and is
administered by an independent, seven-member Board of Directors. Three of
the directors are appointed by TVA, and three are elected by and from the
membership. A seventh director is selected by the other six. The TVARS Board
also has responsibility for administration of a defined contribution plan, the TVA
Savings and Deferral Retirement Plan (401(k) Plan).

TVA is to contribute to TVARS amounts necessary on an actuarial basis to
provide TVARS with assets sufficient to meet TVA-financed benefit obligations to
be paid to members. While members are not required to make contributions to
TVARS, members are eligible to make voluntary contributions to TVARS' Fixed
and/or Variable Funds unless they transferred their funds to the 401(k) Plan after
May 1, 2005. Members can also contribute to the 401(k) Plan, and TVA makes
matching contributions to that Plan.

A member's retirement benefit consists of a pension benefit provided by TVA's
contributions and earnings on Plan assets. The benefit may also include an
annuity and/or lump sum benefit derived from the member's contributions to the
Fixed and/or Variable Funds and the 401(k) Plan. The pension plus the annuity,
if applicable, compose TVARS' retirement allowance. In addition, TVARS
provides a supplemental benefit to eligible retirees that may be used to help with
the cost of medical insurance.

The Plan's funding process begins with TVARS annually commissioning an
actuarial study of Plan assets and obligations. As part of this study, the actuary
develops a range of contributions for funding the Plan. TVA and TVARS
representatives meet and discuss recommended funding options. TVARS Board
members then vote on a contribution to recommend to TVA. Subsequently,
TVARS will present the recommendation to TVA. If TVA agrees with the
recommended contribution, it is then approved by the TVA Board, and payment
is made to TVARS.

On June 8, 2009, the TVARS Board voted to recommend a contribution by TVA
to the retirement system of $300 million for fiscal year (FY) 2010. According to a
TVARS representative, TVARS' actuary determined annual contributions of
$300 million over the next 30 years would provide 60 percent1 confidence that all
current benefits would be fully funded at the end of such period. According to the
TVARS Board, absent any changes in Plan provisions or actuarial assumptions
or differences between actual and expected experience, this level of annual

                                                            
1
    According to an actuary consulted by the Office of the Inspector General (OIG), a confidence interval
    greater than 60 percent would be difficult to attain due to the extended time period of 30 years. Typically,
    a more common and accurate approach is a 5- to 7-year projection. However, according to the OIG
    consultant, a 20- to 30-year amortization of funding shortfall is common for government pension funds.
Audit 2009-12326                                                                                         Page 1
Office of the Inspector General                                                              Audit Report


contribution will be necessary over the next 30 years to provide a reasonable
chance that all current benefits will be fully funded. {REDACTED}

On July 14, 2009, TVA's Finance, Strategy, Rates, and Administration Committee
recommended the TVA Board approve a contribution by TVA of $1 billion to
TVARS in FY 2010 in lieu of contributions over the next four years (FY 2010-
2013), provided TVARS' Board of Directors reduced the liabilities of the
retirement system by at least $600 million.

At its August 20, 2009, meeting, the TVA Board approved a contribution to
TVARS of $1 billion for FY 2010 and as an advance on its contributions through
FY 2013.2 TVA approved the $1 billion contribution given there would be benefit
reductions of $300 million. Some of the benefit reductions were temporary while
others were permanent reductions. Approved changes are as follows:

•      The temporary benefit reductions involved the TVARS cost-of-living-
       adjustment (COLA).
       •      For calendar year 2010, the COLA will be zero.
       •      For calendar year 2011, the COLA will be the change in the Consumer
              Price Index (CPI), capped at 3 percent.
       •      For calendar year 2012, the COLA will be zero.
       •      For calendar year 2013, the COLA will be the change in the CPI, capped
              at 2.5 percent.
•      At the end of this four-year period, the current COLA benefit of CPI, capped at
       5 percent, will be restored. These changes were made temporary to consider
       the possibility of the markets recovering after four years.
•      Current employees who retire on or after January 1, 2010, will be eligible to
       receive a COLA at actual age 60.
•      The interest crediting rate for the Fixed Fund balances and future
       contributions will be reduced to 6 percent from 7.25 percent, effective
       January 1, 2010. No change was made to the 8 3/8 percent Fixed Annuity
       Fund conversion rate or any other benefits.
•      Investment professionals are to be added to the TVARS Investment
       Committee as advisors. This is in addition to Wilshire Consulting, TVARS'
       current financial advisor.




                                                            
2
    On September 24, 2009, TVA contributed $1 billion to TVARS. According to TVA, this increased the
    funding level to above 80 percent.
Audit 2009-12326                                                                                  Page 2
Office of the Inspector General                                                               Audit Report


OBJECTIVES, SCOPE, AND METHODOLOGY
As part of our annual audit plan, our office reviewed the risks associated with the
TVA pension plan and how those risks are mitigated. Our audit covered areas,
such as (1) controls designed to mitigate pension risk, (2) the TVARS financial
statement audit performed by their external auditor as it relates to the existence
and valuation of assets, (3) the work of TVARS' actuary in determining TVA's
pension liability, (4) funding and benefits decisions and other factors impacting
the financial status of TVARS, and (5) concerns raised during the audit by
TVARS members. To achieve our objectives, we:

•      Obtained a record of all internal controls3 designed to mitigate pension risks.
       The list of controls was from the external auditor's Statement on Auditing
       Standards (SAS) 70 report, Report on Controls Placed in Operation and Tests
       of Operating Effectiveness, dated July 31, 2008.
•      Reviewed the external auditor's work related to testing internal controls.
•      Assessed whether the work performed and results obtained adequately
       supported the external auditor's conclusions.
•      Reviewed the external auditor's workpapers related to the existence and
       valuation of assets.
•      Compared the amounts listed in TVARS' most recent annual report to the
       amounts in the external auditor's workpapers.
•      Hired a consultant to assess the work of TVARS' actuary, Mercer Human
       Resource Consulting (Mercer), in (1) determining TVA's pension liability and
       (2) developing its FY 2010 contribution recommendation.
•      Obtained the actuarial valuation reports used to determine TVA's pension
       liability in the FYs 2007 and 2008 TVARS Annual Reports.
•      Determined whether the key assumptions used by the actuary to calculate the
       pension liability were reasonable.
•      Compared the pension liability amounts calculated by the actuary to the
       amounts in the TVARS 2007 and 2008 Annual Reports.
•      Assessed the current funding status and actuarial assumptions and
       methodology used to develop the FY 2010 contribution recommendation.
•      Obtained a record of TVA's pension system contributions dating back to
       FY 1990.
•      Compared TVARS' funding level to that of other utilities.
•      Reviewed other decisions made by TVA and TVARS (i.e., adding benefits
       and early retirement age).


                                                            
3
    We did not review information technology controls, as we deemed these were outside the scope.
Audit 2009-12326                                                                                    Page 3
Office of the Inspector General                                                                       Audit Report


We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives. In performing
this audit, nothing came to our attention that indicated noncompliance with
applicable laws and regulations.


FINDINGS
Our review determined TVARS' (1) controls were suitably designed and
operating with sufficient effectiveness to provide reasonable assurance that the
control objectives specified were achieved, (2) external auditor performed the
work according to their audit program, and we found nothing to question their
work or conclusions, and (3) method used to calculate the pension liability and
funding contribution was acceptable.

We also determined that a combination of factors resulted in TVARS
experiencing a significant shortfall between assets and projected obligations and
being funded at a lower level relative to obligations than most other comparison
utilities. Four factors contributed to this shortfall. Specifically, (1) not making
contributions to TVARS in six years, (2) adding significant benefits to the plan
when the funding status was better, (3) making TVARS rules that had the effect
of enticing employees to retire, and (4) the market crash of 2008 and early 2009
resulted in the funding shortfall. These events constituted a near "perfect storm"
that created a financially unhealthy system with a funding shortfall of
approximately $3 billion and annual retirement benefit payments of about
$575 million as of December 31, 2008.

We provided an informal draft of this report to TVA management and the TVARS
Board. These responses are attached. In addition, we received one TVARS
Board member's response.

REVIEW OF TVARS' INTERNAL CONTROLS
E H Johnson & Co, P.C. (EHJCO), performed tests of internal controls for
TVARS as part of a SAS 70 review for TVA.4 We obtained the most recent
"Report on Controls Placed in Operation and Tests of Operating Effectiveness"
dated July 31, 2008, as well as the prior year's report dated July 31, 2007,
performed by EHJCO. This annual report details the review of the controls

                                                            
4
    SAS 70, "Service Organizations," is a widely recognized auditing standard developed by the American
    Institute of Certified Public Accountants. A service auditor's examination performed in accordance with
    SAS 70 ("SAS 70 Audit") is widely recognized because it represents that a service organization has been
    through an in-depth audit of their control objectives and control activities, which often include controls over
    information technology and related processes.
Audit 2009-12326                                                                                           Page 4
Office of the Inspector General                                           Audit Report


performed to reduce pension risk. We reviewed the workpapers supporting the
July 31, 2008, report. We found (1) evidence all "tests performed" as described
in the July 31, 2008, report were actually performed, (2) all EHJCO conclusions
were supported by the test results documented in the workpapers, and
(3) EHJCO concluded TVARS controls were suitably designed and operating
with sufficient effectiveness to provide reasonable assurance that the control
objectives specified were achieved.

REVIEW OF TVARS' EXTERNAL AUDIT
Crowe Horwath, LLP (Crowe), was hired by TVARS to perform its FY 2008
financial statement audit. We reviewed Crowe's workpapers related to the
existence and valuation of assets. For existence testing, Crowe confirmed
(1) the assets held by Bank of New York Mellon and (2) the limited partnerships 
and derivatives held by various investment management firms. We found Crowe
performed the work according to their audit program and found no reason to
question Crowe's work or conclusions.

Crowe used a third party, Harvest Investments, LTD. (Harvest), to test (1) a
sample of defined benefit plan investment values at year-end and (2) the buy/sell
price of a sample of defined benefit plan investment transactions that were made
during the year. With regard to FY 2008 year-end investment valuations, Harvest
calculated a value of $4,069,356,886. However, the TVARS provided value was
$4,102,634,963—a difference of $33,278,077. TVARS made an adjusting entry
of ($29,775,377). After the adjusting entry was made, the final difference was
$3,502,700, which Crowe deemed immaterial. Crowe found no exceptions in the
investment transaction testing that could not be explained to their satisfaction. In
summary, Crowe concluded the financial statements present fairly, in all material
respects, the financial status of the Plan.

We also compared the total asset and liability amounts in the auditor's
workpapers to TVARS' most recent annual report and found no material
differences.

REVIEW OF TVARS' ACTUARY IN DETERMINING PENSION
LIABILITY
The Office of the Inspector General (OIG) hired a consultant to assess the work
of TVARS' actuary, Mercer, in (1) determining TVA's pension liability and
(2) developing its FY 2010 contribution recommendation. The OIG's consultant
reviewed Mercer's "Report of the Actuary on the Actuarial Valuation of the TVA
Retirement System," prepared as of September 30, 2007, and September 30,
2008, and determined the method used to calculate the pension liability was
acceptable. In addition, the consultant concluded the assumptions used in the
calculation were reasonable. However, the consultant stated TVARS would have
had to use a lower discount rate if TVA were subject to the Pension Protection


Audit 2009-12326                                                               Page 5
Office of the Inspector General                                                                        Audit Report


Act of 2006 (PPA).5 This would have likely resulted in higher required
contribution levels to TVARS. Because of its governmental status, TVA is not
subject to the minimum funding requirements of the Employee Retirement
Income Security Act of 1974 (ERISA) as amended by the PPA.

The OIG consultant also reviewed Mercer's work in developing the FY 2010
contribution recommendation and noted that TVARS used a 20- to 30-year time
horizon in developing its FY 2010 contribution recommendation for TVA. The
consultant stated they are more comfortable using projections that extend five to
seven years. However, according to the OIG consultant, a 20- to 30-year time
horizon is common for government pension funds.

TVA'S FUNDING AND BENEFITS DECISIONS AND MARKET
CONDITIONS IMPACTED TVARS' FUNDING STATUS
A combination of factors resulted in TVARS experiencing a significant shortfall
between assets and projected obligations and being funded at a lower level
relative to obligations than most other comparison utilities. Four factors
contributed to this shortfall. Specifically, (1) not making contributions to TVARS in
six years, (2) adding significant benefits to the plan when the funding status was
better, (3) making TVARS rules that had the effect of enticing employees to
retire, and (4) the market crash of 2008 and early 2009 resulted in the funding
shortfall. In effect, this combination of decisions and events constituted a near
"perfect storm" that created a financially unhealthy system with a funding shortfall
of approximately $3 billion and annual retirement benefit payments of about
$575 million as of December 31, 2008.

Funding Status and History – As of December 31, 2008, the Plan was
approximately 63 percent funded with plan assets of $5.1 billion, while projected
benefit obligations were $8.1 billion. The system has almost twice as many
retirees as active members. Currently TVARS has 23,000 retirees and only
12,000 active members.




                                                            
5
    PPA significantly changed the funding requirements for defined benefit pension plans. PPA generally
    establishes a 100 percent funding target for plans. If plan assets are less than the plan's target liability, in
    general, the minimum contribution is the amount needed to fund benefits earned during the current plan
    year plus a seven-year amortization of the amount that liabilities exceed assets. If the funding level of the
    plan falls below certain thresholds, the plan may be considered at risk and subject to additional
    contributions.
Audit 2009-12326                                                                                             Page 6
Office of the Inspector General                                                                  Audit Report


As shown in Table 1, TVARS' funding status6 since 1990 has ranged from as
high as 156 percent at September 30, 1997, to as low as 63 percent at
December 31, 2008.

                                                        TVARS' FUNDING HISTORY

                                                                                             Liabilities
                               Contribution                    Percentage of   Percentage      Added
       Year                     ($ Millions)                      Payroll       Funded      ($ Millions)
       1990                           45.1                           6.7           112           ---
       1991                           48.0                           6.7           127           ---
       1992                           49.8                           6.7           129           ---
       1993                           51.2                           6.7           133           ---
       1994                           53.3                           6.7           124           ---
       1995                           49.6                           6.7           133          209.6
       1996                           49.7                           6.4           139           71.0
       1997                            ---                          ---            156           ---
       1998                           27.0                           4.0           134        1,102.8
       1999                            ---                          ---            150           ---
       2000                             3.0                          0.4           137          584.1
       2001                            ---                          ---            104           ---
       2002                            ---                          ---             80           ---
       2003                            ---                          ---             93           ---
       2004                           21.8                           2.7            97         (119.1)
       2005                           53.2                           6.2           104           ---
       2006                           75.0                           9.1           104           11.6
       2007                           75.2                           9.1           108           ---
       2008                           75.0                           8.7            79           ---
       2009                           85.1                           9.7A           63B          ---
                                    $762.0                     Average – 4.8                Sum = 1,860.0
A
    estimated                                                                                     TABLE 1
B
    at 12/31/08

During the 1990 through 2009 time period, TVA's contribution rate to TVARS
averaged 4.8 percent of payroll. During that same time period, TVA made an
average annual contribution to the Federal Employees Retirement System
(FERS) of 11.54 percent of payroll which was based on federal mandate for TVA
employees enrolled in that plan. Had TVA made the same percentage of payroll
contributions to TVARS as it did to FERS during this time period, the system
assets would be higher by approximately $2.2 billion. In addition, TVA has
funded the Supplemental Executive Retirement Plan (SERP) since its inception
in FY 1996, including the six7 years when no contribution to TVARS was made.

                                                            
6
    Funding status was calculated by dividing net assets available for benefits by the accumulated benefit
    obligation. We obtained this information from TVARS' Annual Reports, except for the net assets available
    for benefits at December 31, 2008, which we obtained directly from TVARS.
7
    There were five years of no contribution and a sixth year when a $3 million contribution was made only to
    cover TVARS' administrative expenses.
Audit 2009-12326                                                                                      Page 7
Office of the Inspector General                                                                  Audit Report


As of October 1, 2008, the SERP had a pension benefit obligation of
$43.2 million with only 35 participants.

In the OIG's April 1, 1990, to September 30, 1990, Semiannual Report, the OIG
informed the TVA Board of Directors that a reduced contribution rate would not
materially affect the pension plan's soundness. Specifically, the report
addressed the appropriateness of TVA's FY 1990 contribution rate to TVARS. At
that time, the fair market value of plan assets exceeded estimated accrued
liabilities by $485 million. The OIG report stated that reducing the 1990
contribution rate from 11.5 percent of payroll to 6.55 percent would allow TVA to
avoid annual interest cost of $2.8 million and would not have affected TVARS'
ability to pay approved benefits. However, the report also recommended
requiring contribution rates that would result in fair market value of TVARS'
assets not being significantly less than TVARS' estimated accrued liabilities.

We compared TVARS' funding percentage as of December 31, 2008, to ten other
utilities' pension plans, and TVARS had one of the lowest funding percentages.8
As the table on the following page illustrates, TVARS tied for seventh out of the
11 utilities with regard to funded percentage as of that date. We also performed
the same comparison for FYs 2004 through 2007, and the results were similar
with TVA being ranked either eighth or ninth each year.

In addition to being 63 percent funded, TVA makes the second largest annual
pension benefit payment, trailing only Exelon. According to Exelon's
December 31, 2008, 10-K, aggregate pension contributions are expected to be
approximately $4 billion through 2014.




                                                            
8
    Seven of the ten utilities were selected from TVA's "April 2009 Total Rewards Benchmark Analysis
    Executive Summary." The remaining three utilities were selected from a group that TVA lists in its 2008
    10-K as being similar in revenue and scope to TVA.
Audit 2009-12326                                                                                      Page 8
Office of the Inspector General                                                      Audit Report


       COMPARISON OF TVARS FUNDING LEVEL TO OTHER UTILITIES
                      As of December 31, 2008
                                       (All Dollar Amounts in Millions)

                            Projected                                              Annual
                                                Plan                      Funded
            Utility         Benefit                         Unfunded               Pension
                                               Assets                       %
                            Obligation                                             Benefits

   1     Dominion                 $ 3,893      $ 3,757        $ (136)      97%      $ 196
         Southern
   2     Company                   5,879         5,093          (786)      87%        324
         Services
         American
   3     Electric                  4,301         3,161        (1,140)      73%        296
         Power
         Ameren
   4                               3,303         2,393          (910)      72%        166
         Corporation
   5     DTE                       3,032         2,155          (877)      71%        201
         Duke Energy
   6     Corporation               4,161         2,853        (1,308)      69%        304
         Entergy
   7     Corporation               3,305         2,078        (1,227)      63%        151

   8     TVA                       8,080         5,102        (2,978)      63%        525
         Consolidated
   9                               9,383         5,836        (3,547)      62%        433
         Edison, Inc.
  10     Exelon                   10,788         6,664        (4,124)      62%        630
         Progress
  11     Energy, Inc.              2,234         1,285          (949)      58%        127
                                                                                     TABLE 2

Because of its governmental status, TVA is not subject to the minimum funding
requirements of the Employee Retirement Income Security Act of 1974 (ERISA)
as amended by the PPA. Generally, the minimum funding requirement under the
PPA is based on the funded status of the plan. In general if the plan assets
exceed the present value of accrued benefits, then the minimum contribution is
the normal cost reduced by the excess of the assets less the present value of
accrued benefits. If the plan assets are less than the present value of accrued
benefits, then the required contribution is the normal cost plus a seven-year
amortization of the shortfall.

While other utilities have legal obligations to abide by minimal pension funding
standards set forth by ERISA and the PPA, TVA follows the guidelines set forth
in the "Rules and Regulations of the TVA Retirement System." According to
Section 9.B.5, TVA's total amount payable each year to TVARS shall not be less
than the sum of the normal contribution rate and the accrued liability contribution
rate applied to the total compensation earnable by all members, plus cost-of-
living contributions. However, according to Section 9.B.7 of the guidelines, if the

Audit 2009-12326                                                                            Page 9
Office of the Inspector General                                                                 Audit Report


actuarial valuation determines the funds are in excess of the amount required to
provide fully the nonforfeitable benefits and benefits that have not become
forfeitable as set forth in Section 11B, TVA may limit its contributions in a year to
an amount, if any, determined by the Board. The OIG consultant stated
establishing a funding requirement where contributions were required until fund
assets exceeded liabilities by 10 percent would be prudent in the case of TVARS
because (1) TVA's pension plan is such a mature plan, with approximately
23,000 retirees and 12,000 employees, and (2) TVARS' annual benefit payments
are so large ($575 million annually, or about 10 percent of the asset value at
December 31, 2008).

Funding and Benefits Decisions – TVA's annual Plan contribution rate had
been 11.5 percent of payroll during FYs 1979 through 1989. However, TVA's
annual Plan contribution rate averaged only 4.8 percent of payroll during the
period of FYs 1990 through 2009, including six9 years when no contribution was
made.10 The rationale for the lower contribution rate was the fact that the TVARS
funding status was relatively high in the year the contributions were skipped.
However, according to an actuary we consulted to review TVARS' pension plan,
most plan sponsors during the 1990s viewed the excess asset returns as their
contribution to the pension plan. In reality, those excess asset returns were
already anticipated in the asset return assumption to compensate for the
negative asset return years, hence achieving a long-term rate of return
assumption. When an employer uses those returns to fund their contributions,
they should anticipate funding more in negative return years.

In addition, during the time period 1995–2006, TVA/TVARS added approximately
$1.9 billion in liabilities/benefits to the retirement system, while only contributing
$279 million for the same time period. Among these additional liabilities/benefits
were $921 million for the Supplemental Benefit and additional military
liabilities/benefits totaling $765.9 million. {REDACTED}

Moreover, the TVARS benefit reductions discussed previously in the Background
section came less than a year after a TVA-imposed deadline enticed employees
to retire by December 31, 2008.  The Supplemental Benefit provided through
TVARS enticed many employees to retire early, especially in calendar year 2008.
The Supplemental Benefit is a monthly benefit that is intended to aid in paying for
retiree medical insurance costs. The monthly payment is based on the member's
number of years of service multiplied by a dollar amount determined by TVARS.
Employees who were at least age 50 with ten years of service could retire and
receive the Supplemental Benefit. However, based upon the TVARS Rules and
Regulations, the age to receive the Supplemental Benefit increased from age 50
to 55 for retirees who retire after December 31, 2008. Thus employees who
were age 50–54 during 2008 had to decide whether to retire before


                                                            
9
   There were five years of no contribution and a sixth year when a $3 million contribution was made only to
   cover TVARS' administrative expenses.
10
   TVA's fiscal year-end is September 30.
Audit 2009-12326                                                                                    Page 10
Office of the Inspector General                                            Audit Report


December 31, 2008, or wait to retire when they were 55 years old. Retirements
for people in the 50- to 54-year old age groups increased significantly based on
information provided by TVARS. The number of employees who retired between
the ages of 50-54 increased by about 282 percent from 2006 to 2008 (164 to 462
retirements).

The Market Crash – In calendar year 2008, primarily the last quarter of 2008,
and the first quarter of calendar year 2009, stock markets experienced significant
declines as evidenced by the decline of the Dow Jones Industrial Average
(DJIA). The DJIA declined by about 30 percent for the period January 1, 2008,
through December 31, 2008, and about 40 percent for the period January 1,
2008, through March 30, 2009. TVARS, as well as other pension funds, invested
a significant percentage, approximately 60 percent, of Plan assets in stocks
during this market decline, which negatively impacted the value of the Plan
assets.

CONCERNS EXPRESSED BY TVARS MEMBERS
This review was ongoing when TVA and TVARS were in negotiations regarding
the FY 2010 contribution and potential benefit reductions as described
previously. During those negotiations, our office was contacted by several
TVARS members—both by e-mail and telephone—expressing concerns related
to the impact the reductions might have. Most of these concerns were related to
perception issues. One such concern related to the fairness of proposing cuts to
the TVARS benefits without cuts to the SERP or the FERS plans, especially
given the fact two of the TVARS Board members are covered by SERP. Another
issue was the perception that past benefit decisions encouraged employees to
retire early, thus increasing the benefit payments by TVARS and ultimately hiring
some of those retirees back under contract. As described in this report, TVA has
(1) continued to fund the SERP and FERS while reducing or eliminating
contributions to TVARS and (2) increased the number of retirees due to the
benefit enticements.

Lastly, TVARS members informed us that the cost-of-living adjustment has been
a benefit for many years, but the TVARS Board does not have independent legal
counsel to assist in determining whether those benefits, or other benefits, are
vested. TVA's Office of the General Counsel also represents TVARS in the
same capacity. According to the OIG consultant, it is a good governance
practice for pension funds to have outside legal counsel available instead of
relying solely on internal legal counsel for significant issues. This also mitigates
the risk of reputational harm.




Audit 2009-12326                                                              Page 11
APPENDIX A
{REDACTED}
APPENDIX B
{REDACTED}
APPENDIX C
 Page 1 of 2
APPENDIX C
 Page 2 of 2
APPENDIX D
 Page 1 of 1
